quinn emanuel

trial lawyers | new york

51 Madison Avenue, 22nd Floor, New York, New York 10010-1601 | TEL (212) 849-7000 FAX (212) 849-7100

WRITER'S DIRECT DIAL NO.
(212) 849-7471
WRITER'S EMAIL ADDRESS
coreyworcester@quinnemanuel.com

May 8, 2020
VIA E-FILING AND OVERNIGHT MAIL
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

LinkedIn Corp. v. hiQ Labs, Inc., No. 19-1116

Dear Mr. Harris:
I write as counsel of record for Respondent hiQ Labs, Inc.
The petition for a writ of certiorari in this case was filed on March 9, 2020. A response in this
case is currently due May 26, 2020. Pursuant to Rule 30.4, Respondent respectfully requests a
30-day extension of time within which to file a response to the petition, to June 25, 2020, to
allow counsel adequate time to prepare the response in light of other obligations.
Please note that Petitioner previously sought and was granted a 30-day extension to file its
petition for a writ of certiorari. See Application No. 19A819.
Thank you for your consideration of this request.
Respectfully submitted,

Richard Corey Worcester
cc:

Donald B. Verrilli, Jr.
Alan Butler
quinn emanuel urquhart & sullivan, llp
LOS ANGELES | NEW YORK | SAN FRANCISCO | SILICON VALLEY | CHICAGO | WASHINGTON, DC | HOUSTON | SEATTLE | BOSTON | SALT LAKE CITY
LONDON | TOKYO | MANNHEIM | HAMBURG | PARIS | MUNICH | SYDNEY | HONG KONG | BRUSSELS | ZURICH | SHANGHAI | PERTH | STUTTGART

